No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
BINH NGUYEN,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment of the United States District Court for the Northern District
of Texas
Appendix C Judgment of Revocation and Sentence of the United States District
Court for the Northern District of Texas

APPENDIX A

Case: 19-10484

Document: 00515321126

Page: 1

Date Filed: 02/26/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10484
Summary Calendar

United States Court of Appeals
Fifth Circuit

FILED
February 26, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
BINH NGUYEN,

Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:16-CR-89-1
Before JOLLY, JONES, and SOUTHWICK, Circuit Judges.
PER CURIAM: *
Binh Nguyen appeals the revocation of his term of supervised release
under 18 U.S.C. § 3583(g)(1) upon the district court’s finding by a
preponderance of the evidence that he possessed controlled substances. Citing
the Supreme Court’s decision in United States v. Haymond, 139 S. Ct. 2369,
2378 (2019), he asserts that the district court erred by applying the mandatory

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 19-10484

Document: 00515321126

Page: 2

Date Filed: 02/26/2020

No. 19-10484
revocation provision of § 3583(g)(1) without affording him the right to a jury
finding that he committed the violations beyond a reasonable doubt.
Because Nguyen raises this claim for the first time, we review for plain
error. See United States v. Whitelaw, 580 F.3d 256, 259 (5th Cir. 2009). He
must show an error that is clear or obvious and that affects his substantial
rights. See Puckett v. United States, 556 U.S. 129, 135 (2009). If he makes
such a showing, we have the discretion to correct the error but only if it
seriously affects the fairness, integrity, or public reputation of judicial
proceedings. See id.
Haymond addressed the constitutionality of § 3583(k) of the supervised
release statute, and the plurality opinion specifically stated that it was not
expressing any view on the constitutionality of other subsections of the statute,
including § 3583(g). See Haymond, 139 S. Ct. at 2382 n.7. Because there
currently is no case law from either the Supreme Court or this court extending
Haymond to § 3583(g) revocations, we conclude that there is no error that was
plain. See United States v. Escalante-Reyes, 689 F.3d 415, 418 (5th Cir. 2012)
(en banc); United States v. Gonzalez, 792 F.3d 534, 538 (5th Cir. 2015).
Nguyen fails to establish plain error; thus, the judgment of the district
court is AFFIRMED.

2

APPENDIX B

Case 4:16-cr-00089-A Document 38 Filed 09/09/16

Page 1 of 5 PageID 91

Case 4:16-cr-00089-A Document 38 Filed 09/09/16

Page 2 of 5 PageID 92

Case 4:16-cr-00089-A Document 38 Filed 09/09/16

Page 3 of 5 PageID 93

Case 4:16-cr-00089-A Document 38 Filed 09/09/16

Page 4 of 5 PageID 94

Case 4:16-cr-00089-A Document 38 Filed 09/09/16

Page 5 of 5 PageID 95

APPENDIX C

Case 4:16-cr-00089-A Document 57 Filed 04/25/19

U.S. DISTRICT COLin

Page 1 of NORTIIERN
3 PageID
174 OF TEXAS
DISTRICT

FILED
IN THE UNITED STATES DISTRICT CO
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION

APR 2 5 2019

T

CLERK, U.S. DISTRICT COURT

8~----~-------bcputy
UNITED STATES OF AMERICA

§
§

vs.

§
§

BINH NGUYEN

§

NO. 4:16-CR-089-A

JUDGMENT OF REVOCATION AND SENTENCE
Came on to be heard, as contemplated by Fed. R. Crim. P.
32.1, the motion of United States of America to revoke the term
of supervised release imposed on defendant, BINH NGUYEN.

After

having considered the grounds of the government's motion,
defendant's admissions, statements by and on behalf of defendant,
and argument of counsel, the court has determined that the term
of supervised release imposed on defendant should be revoked and
that defendant should be sentenced to a term of imprisonment of
18 months and to serve an 18-month term of supervised release
upon discharge from prison.
The court finds and concludes that:
(a)

Defendant was given, in a timely manner, written

notice of his alleged violations of the term of supervised
release upon which the motion to revoke is basedi
(b)

The motion to revoke the term of supervised

release was served on defendant in a timely manner prior to
the hearingi

--

Case 4:16-cr-00089-A Document 57 Filed 04/25/19

(c)

- - - - - - - - - - - - - - -

Page 2 of 3 PageID 175

There was a disclosure to defendant, and his

attorney, of the evidence against defendant; and
(d)

The hearing was held within a reasonable time.

Other findings and conclusions of the court were stated by
the court into the record at the hearing.

The court adopts all

such findings and conclusions as part of this judgment.
In reaching the conclusions and making the determinations
and rulings announced at the hearing, and as stated in this
judgment, the court considered all relevant factors set forth in
18 U.S.C.

§

3553(a) that are proper for consideration in a

revocation context.
The court ORDERS, ADJUDGES, and DECREES that the term of
supervised release, as provided by the judgment in a criminal
case imposed and signed September 9, 2016,

(the "underlying

judgment") be, and is hereby, revoked; and
The court further ORDERS, ADJUDGES, and DECREES that
defendant, Binh Nguyen, be, and is hereby, committed to the
custody of the United States Bureau of Prisons to be imprisoned
for a term of 18 months, to be followed by a term of supervised
release of 18 months.
The court further ORDERS, ADJUDGES, and DECREES that, while
on supervised release, defendant shall comply with the same
conditions as set forth in the underlying judgment.
2

Case 4:16-cr-00089-A Document 57 Filed 04/25/19

Page 3 of 3 PageID 176

The court hereby directs the probation officer to provide
defendant with a written statement that sets forth all the
conditions to which the term of supervised release is subject, as
contemplated and required by Title 18 United States Code
section 3583 (f) .
The defendant is remanded to the custody of the United
States Marshal.
The date of imposition of the sentence provided by this
judgment is April 25, 2019.
SIGNED April 25, 2019.

Personal information about the defendant is set forth on the
attachment to this Judgment of Revocation and Sentence.

3

